              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum
                                                                                         AUG 2 1.2013

To:            Rhea Suh
               Assistant Secretary for Policy, Management, and Budget

               Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Ma

From:
                                        ager for Audits, Inspections, and Evaluations

Subject:      Verification Review of Recommendations for the Report, "Audit of the
              International Technical Assistance Program" (ER-IN-OSS -0009-2009)
              Report No. VI-VS-OSS -0004-20 13

         T he U.S. Department of the Interior (DOI) Office of Inspector General (OIG) has
completed a verification review of the six recommendations presented in the subject report. Our
obj ective was to determine whether the recommendations had been implemented by DOl's
Office of International Affairs (OIA) as reported to the Office of Financial Management (PFM),
Office of Policy, Management and Budget. PFM has closed all six recommendations. We concur
that all recommendations have been resolved and implemented.

Background

       OIG ' s July 2010 report, "Audit ofthe International Technical Assistance Program,"
contained six recommendations re lated to the International Technical Assistance Program ' s
(ITAP) stewardship of Federal resources.

         In a memorandum dated June 1, 20 I 0, OIA concurred with all six recommendations and
detai led its plans to implement the recommendations as well as actions it had already taken. On
July 26, 2010, we referred the recommendations to PFM for tracking and implementation. PFM
reported on September 27, 20 11 , that OIA had implemented three recommendations and on
September 27, 2012, that the rest had been implemented. PFM then closed all six
recommendations.

Scope and Methodology

       Our scope was limited to determining whether OIA implemented the six
recommendations. We reviewed the supporting documentation provided by OIA officials and
discussed actions taken relating to each of the recommendations. We did not perform any site



                         Office of Audits, Inspections, and Evaluations I H erndon, VA
visits or conduct fieldwork to determine whether OIA corrected the underlying deficiencies that
we initially identified. As a result, this review was not conducted in accordance with the
Generally Accepted Government Auditing Standards or the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       OIA implemented all six of OIG’s recommendations as indicated by their closure.

       Recommendation 1: We recommend that DOI clarify and formally document ITAP’s
       mission and role within DOI.

       Action Taken: On October 19, 2010, OIA published chapter 112 DM 31 in DOI’s
       Departmental Manual. The manual now clarifies and formally documents OIA’s
       organization, functions, and responsibilities, including ITAP. OIA also updated its Web
       site to explain ITAP’s mission and role.

       Recommendation 2: We recommend that DOI draft and implement internal policy that
       would ensure ITAP complies with all statutory and regulatory requirements and
       adequately protects Federal funds.

       Action Taken: On September 27, 2012, OIA submitted a draft of its ITAP Policies and
       Procedures Handbook to OIG and PFM. The latest version of the ITAP Handbook is
       dated July 2013.

       Recommendation 3: We recommend that DOI ensure ITAP’s compliance with the
       Transparency Act.

       Action Taken: The Transparency Act requires Federal agencies to enter the names of all
       entities and organizations that receive over $25,000 in Federal funds into
       www.USAspending.gov. We visited this Web site and verified that ITAP reported its
       awards. On August 1, 2013, the Web site reported 12 transactions with a total of
       $420,476.

       Recommendation 4: We recommend that DOI consult with the Office of the Solicitor to
       determine when MOUs [memoranda of understanding], grants, and cooperative
       agreements are the proper vehicle for disbursing funds through ITAP.

       Action Taken: ITAP included procedures for issuing MOUs, grants, and cooperative
       agreements in Chapter IV of its Handbook, which was reviewed and approved by the
       Office of the Solicitor on September 13, 2012. The approval notification states: “I have
       reviewed the ITAP Handbook of Policies and Procedures and have found that it . . . is
       responsive to all Recommendations of the Inspector General in its General Audit Report
       titled Audit of the International Technical Assistance Program (Report No. ER-IN-OSS-
       0009-2009).”




                                                                                                  2
       Recommendation 5: We recommend that DOI ensure that agreements with donor
       agencies clearly define ITAP’s relationship with donors, the expectations of all parties,
       and the actions a donor agency may take in identifying an entity as a proper recipient of
       Federal funds.

       Action Taken: On June 15, 2011, OIA implemented a policy to ensure that ITAP’s
       agreements with donor agencies clearly articulate why ITAP is the proper funding
       recipient and what work ITAP will accomplish with the funds. The policy included a
       template of a cooperative agreement. OIA also addressed this recommendation in Chapter
       III of the ITAP Handbook.

       On July 19, 2013, the ITAP director provided us with copies of two recent agreements.
       We reviewed the agreements and confirmed that they clearly defined ITAP’s relationship
       with the donor agency, the expectations of all parties, and the actions the donor agency
       can take to identify ITAP as a proper recipient of Federal funds.

       Recommendation 6: We recommend that DOI develop and implement policy and
       operating procedures that define ITAP’s processes, particularly its administrative fees, to
       include requirements for regular review and appropriate adjustment.

       Action Taken: On April 1, 2011, the ITAP director issued a DOI-ITAP Management
       Fees Analysis, which listed five things every ITAP agreement should contain. This policy
       provided for an annual management fee review and adjustment. According to the ITAP
       director, updates to the administrative fees policy were published in Chapter III of the
       ITAP Handbook.

Conclusion

       We informed OIA officials of the results of this review on August 8, 2013. OIA officials
agreed with our results.


cc: Barbara Pitkin, Director, Office of International Affairs
    Cynthia Perera, Deputy Director, Office of International Affairs
    Sharon Blake, Audit Liaison Officer, Office of Financial Management
    Nancy Thomas, Audit Liaison Officer, Office of Financial Management
    Alexandra Lampros, Audit Liaison Officer, Office of Financial Management




                                                                                                   3
